COCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B outs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-416
NESTLE USA, INC.,
Petitioner,
Vv.
JOHN DOE I, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE GRANT &
EISENHOFER ESG INSTITUTE AS AMICUS CURIAE IN SUPPORT OF RESPONDENTS in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 4700 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 21st day of October, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm, Exp. September ยง, 2023

 

 

GENERAL NOTARY-Slate of Nebraska Dida &v Chi,
RENEE J, GOSS 0. ,
Notary Public

Affiant

40231
